      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General

                                                                       Washington, D.C. 20201




March 9, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Review of CERT Errors Overturned Through the Appeals Process for Fiscal
                Years 2009 and 2010 (A-01-11-00504)


The attached final report provides the results of our review of CERT (Comprehensive Error Rate
Testing) errors overturned through the appeals process for fiscal years 2009 and 2010.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Kay L. Daly, Assistant Inspector General for Audit Services, at
(202) 619-1157 or through email at Kay.Daly@oig.hhs.gov. We look forward to receiving your
final management decision within 6 months. Please refer to report number A-01-11-00504 in all
correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  REVIEW OF CERT ERRORS
 OVERTURNED THROUGH THE
    APPEALS PROCESS FOR
 FISCAL YEARS 2009 AND 2010




                       Daniel R. Levinson
                        Inspector General

                          March 2012
                         A-01-11-00504
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) established the Comprehensive Error
Rate Testing (CERT) program to produce a national Medicare fee-for-service (FFS) error rate.
An erroneous payment amount is the difference between the amount that Medicare paid a health
care provider and the amount that it should have paid. Using the results of the CERT program,
CMS annually submits to Congress an estimate of the amount of improper payments for
Medicare FFS claims, pursuant to the Improper Payments Information Act of 2002 (P.L. No.
107-300).

Medicare Appeals Process

Providers have the right to appeal claim payment denials made by the CERT review contractor.
The Medicare appeals process has five levels, but the majority of overturned CERT claim
payment denials occur during the first three levels, which are (1) Medicare Administrative
Contractor redeterminations, (2) Qualified Independent Contractor reconsiderations, and
(3) Administrative Law Judge hearings.

Reported Error Rates for Fiscal Years 2009 and 2010

The error rates for fiscal years (FY) 2009 and 2010 were 7.8 percent ($24.1 billion) and
10.5 percent ($34.3 billion), as reported in CMS’s Agency Financial Report for the respective
years. The FY 2009 Improper Medicare Fee-for-Service Payments Report states that appeal
decisions made after the cutoff period for determining the error rate are not reflected in improper
payments report estimates.

OBJECTIVE

Our objective was to determine the effect that CERT claim payment denials overturned after the
cutoff date would have had on the Medicare FFS error rates that CMS reported for FYs 2009 and
2010.

SUMMARY OF FINDINGS

CERT claim payment denials overturned after the cutoff date for determining the Medicare FFS
error rate for each FY would have reduced the reported error rates from 7.8 percent to
7.2 percent for FY 2009 and from 10.5 percent to 9.9 percent for FY 2010. Approximately
5.5 percent of the CERT claim payment denials for FY 2009 and 7.6 percent for FY 2010 were
overturned during one of the first three levels of the appeals process. If these overturned CERT
claim payment denials had been included in the initial error-rate calculations, the estimated value
of reported errors for FYs 2009 and 2010 would have decreased by approximately $2 billion
each year. CMS could improve the accuracy of the reported estimate of improper payment error
rates by including an adjustment for overturned CERT claim payment denials.



                                                 i
RECOMMENDATION

We recommend that CMS develop a reliable methodology for adjusting the Medicare FFS error
rate, incorporating the outcome of appeal decisions for CERT claim payment denials, to make
CMS’s estimate of the value of reported errors more accurate.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our findings and outlined steps for
implementing our recommendation. CMS’s comments, excluding a technical comment that we
addressed as appropriate, are included as Appendix B.




                                               ii
                                                   TABLE OF CONTENTS
                                                                                                                                 Page

INTRODUCTION.................................................................................................................1

       BACKGROUND ...........................................................................................................1
          Medicare Error Rate Program ...............................................................................1
          CERT Contractors’ Roles .....................................................................................1
          Medicare Appeals Process ....................................................................................1
          Fiscal Years 2009 and 2010 Error Rates...............................................................2

       OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
           Objective ...............................................................................................................2
           Scope .....................................................................................................................2
           Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATION..........................................................................3

       CERT CLAIM PAYMENT DENIALS OVERTURNED .............................................3

       FISCAL YEARS 2009 AND 2010 ERROR-RATE REDUCTIONS............................4

       RECOMMENDATION .................................................................................................5

       CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..................5

APPENDIXES

       A: CERT CLAIM PAYMENT DENIALS OVERTURNED AND THE EFFECT ON
          ERROR RATES

       B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                     iii
                                      INTRODUCTION

BACKGROUND

Medicare Error Rate Program

The Centers for Medicare & Medicaid Services (CMS) established the Comprehensive Error
Rate Testing (CERT) program to produce a national Medicare fee-for-service (FFS) error rate.
An erroneous payment amount is the difference between the amount that Medicare paid a health
care provider and the amount that it should have paid. Using the results of the CERT program,
CMS annually submits to Congress an estimate of the amount of improper payments for
Medicare FFS claims, pursuant to the Improper Payments Information Act of 2002 (P.L. No.
107-300). The annual estimate does not reflect all errors that are overturned during the appeals
process. As a result, the reported estimate may overstate the actual amount of improper
payments.

CERT Contractors’ Roles

CMS contracts with three entities to administer the CERT program: (1) the documentation
contractor requests and receives medical records from providers; (2) the review contractor selects
claim samples, reviews the medical records obtained by the documentation contractor, and
accepts or denies the claims; and (3) the statistical contractor calculates error rates and the
improper payment amounts based on the review contractor’s determinations.

Medicare Appeals Process

Providers have the right to appeal the review contractor’s determination that a payment for a
claim was improper (42 CFR § 405.904(a)(2)). In this report, we refer to these determinations as
CERT claim payment denials. The Medicare appeals process has five levels, but the majority of
overturned CERT claim payment denials occur during the first three:

   1. Medicare Administrative Contractor (MAC) redeterminations of Medicare A and B: A
      provider has 120 days from the date of receipt of the initial claim determination to file an
      appeal requesting that the MAC examine the claim. A minimum monetary threshold is
      not required to request a redetermination.

   2. Qualified Independent Contractor (QIC) reconsiderations of Medicare A and B: A
      provider dissatisfied with the MAC redetermination may request a reconsideration. The
      QIC reconsideration allows for an independent review of medical necessity issues by a
      panel of health care professionals. A minimum monetary threshold is not required to
      request reconsideration.

   3. Administrative Law Judge (ALJ) hearings: If the value in dispute meets the threshold for
      obtaining an ALJ hearing following the QIC’s decision, a provider may request an ALJ
      hearing within 60 days of receipt of the reconsideration. The ALJ will generally issue a
      decision within 90 days of receipt of the hearing request.

                                                1
In general, providers may submit additional documentation for the first three levels of appeal.
The fourth level is a review by the Medicare Appeals Council within the Departmental Appeals
Board, and the fifth level is a review by the United States District Court.

Fiscal Years 2009 and 2010 Error Rates

The error rates for fiscal years (FY) 2009 and 2010 were 7.8 percent ($24.1 billion) and
10.5 percent ($34.3 billion), as reported in CMS’s Agency Financial Report for the respective
years. 1 The FY 2009 Improper Medicare Fee-for-Service Payments Report states that appeal
decisions made after the cutoff date for determining the error rate are not reflected in its
estimates.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the effect that CERT claim payment denials overturned after the
cutoff date would have had on the Medicare FFS error rates that CMS reported for FYs 2009 and
2010.

Scope

Our review focused on the CERT claim payment denials that were fully or partially overturned 2
during one of the first three levels 3 of the appeals process and after the cutoff dates for
determining the error rates. We limited our review to FYs 2009 and 2010 because the number of
CERT claim payment denials appealed had increased significantly from the number in FYs 2007
and 2008. This may be due, in part, to the CERT program’s change to a more stringent medical
record review methodology in FY 2009.

We limited our review of internal controls to obtaining an understanding of (1) the first three
levels of the appeals process and (2) CMS’s written policies regarding medical reviews, its
methodology for calculating error rates, and its involvement in the appeals process.

We performed our fieldwork from December 2010 through August 2011.

1
  In the FY 2010 Agency Financial Report, CMS stated that the error rate of 7.8 percent noted in the FY 2009 report
represents a combination of review results from two methodologies, one of which was newer and more stringent.
CMS also stated that the error rate for FY 2009 based on a subsample of claims using the newer methodology was
12.4 percent ($35.4 billion).
2
  We received the FYs 2009 and 2010 CERT claim payment denials overturned on March 15, 2011, and June 8,
2011, respectively, from the QIC. Claim payment denials overturned after these dates were not included in our
results.
3
  We excluded the fourth and fifth levels of the appeals process because providers rarely appealed CERT claim
payment denials beyond the third level. Providers appealed a total of 5 claim payment denials beyond the third level
in FYs 2009 and 2010.

                                                         2
Methodology

To accomplish our objective, we:

   •   reviewed the applicable Medicare criteria used to adjudicate claims for the first three
       levels of the appeals process;

   •   determined the number and amounts of CERT claim payment denials overturned during
       the first three levels of the appeals process;

   •   contacted the QIC and the Department of Health and Human Services, Office of
       Medicare Hearings and Appeals, for information on how they track and report appealed
       CERT claim payment denials;

   •   provided data for the statistical contractor to use in determining the effect that CERT
       claim payment denials overturned through appeals would have had for each FY’s
       reported error rate; and

   •   discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

CERT claim payment denials overturned after the cutoff date for determining the Medicare FFS
error rate for each fiscal year would have reduced the reported error rates from 7.8 percent to
7.2 percent for FY 2009 and from 10.5 percent to 9.9 percent for FY 2010. Approximately
5.5 percent of the CERT claim payment denials for FY 2009 and 7.6 percent for FY 2010 were
overturned during one of the first three levels of the appeals process. If these overturned CERT
claim payment denials had been included in the initial error-rate calculations, the estimated value
of reported errors for FYs 2009 and 2010 would have decreased by approximately $2 billion
each year. CMS could improve the accuracy of the reported estimate of improper payment error
rates by including an adjustment for overturned CERT claim payment denials.

CERT CLAIM PAYMENT DENIALS OVERTURNED

In FY 2009, 1,092 of the 2,060 appealed CERT claim payment denials were overturned, and for
FY 2010, 1,557 of the 3,256 appealed CERT claim payment denials were overturned. The
majority of appealed CERT claim payment denials that were overturned occurred during the first
level of appeal. (See the table.)


                                                 3
                   Denials Overturned at the First Three Levels of Appeal

                                                             FY 2009     FY 2010
                 Number of Denied Claims Overturned            1,092       1,557
                   1. MAC Redeterminations                     1,036       1,496
                   2. QIC Reconsiderations                        22          47
                   3. ALJ Hearings                                34          14

See Appendix A for additional information regarding CERT claim payment denials that were
overturned and their effect on error rates.

Examples of the rationales for overturning CERT claim payment denials for Medicare A and B
during the first three levels of appeal included the following:

   1. The MAC overturned a CERT claim payment denial because the provider submitted
      additional medical records that supported the payment of the claim.

   2. The QIC overturned a CERT claim payment denial because it determined that the
      patient’s medical records supported the services billed.

   3. The ALJ overturned a CERT claim payment denial because testimony by
      third-party consultants that was supported by medical records established that the claimed
      services were reasonable and necessary.

CERT claim payment denials overturned through the appeals process had a total value of
approximately $6.1 million. Institutional providers, including inpatient hospitals, accounted for
89 percent of the overturned appeals. The average value for each of these claims was
approximately $5,800.

FISCAL YEARS 2009 AND 2010 ERROR-RATE REDUCTIONS

According to CMS officials, appeal decisions made after the cutoff period for determining error
rates have not been reflected in past reported error rates. If CMS had included the overturned
CERT claim payment denials that we discuss in this report in the Agency Financial Reports and
Improper Medicare Fee-for-Service Payments Reports, the published error rates would have
been reduced from 7.8 percent to 7.2 percent, or approximately $2 billion, for FY 2009 and from
10.5 percent to 9.9 percent, or approximately $2 billion, for FY 2010.

After we discussed the results of our review with CMS officials, CMS refined its error-rate
estimation methodology to reflect the receipt of additional documentation and the outcome of
appeal decisions that occurred after CMS’s cutoff date for determining the error rate. According
to CMS officials, this reduced the FY 2010 error rate to 9.1 percent, or 0.8 percent less than the
9.9 percent we identified in this report. Using the actual appeal results and the submission of late
documentation received after the cutoff date for FY 2010, CMS adjusted the FY 2011 error rate.
We have not reviewed in detail the adjustment methodology that CMS used, but we have

                                                 4
concerns about the reliability of an adjustment methodology that is based on 1 year’s data. In
general, an adjustment based on the results of several years of activity would be more reliable
than one based on 1 year’s activity. For example, a moving average that reflects the outcome of
appeal decisions over 3 to 5 years would generally enhance the adjustment’s reliability.

RECOMMENDATION

We recommend that CMS develop a reliable methodology for adjusting the Medicare FFS error
rate, incorporating the outcome of appeal decisions for CERT claim payment denials, to make
CMS’s estimate of the value of reported errors more accurate.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our findings and outlined steps for
implementing our recommendation. CMS’s comments, excluding a technical comment that we
addressed as appropriate, are included as Appendix B.




                                               5
APPENDIXES
           APPENDIX A: CERT CLAIM PAYMENT DENIALS OVERTURNED
                      AND THE EFFECT ON ERROR RATES

                                                                       FY 2009 FY 2010
                  Reported Error Rate                                     7.8%   10.5%
                  Error Rate After Appeals                                7.2%    9.9%
                  Percentage of Change in
                  Error Rate                                                7.7%         5.7%

                  Number of Reviewed Claims                              99,480        79,872

                  Number of CERT Claim Payment
                  Denials                                                19,754        20,481

                  Percentage of CERT Claim
                  Payment Denials                                           20%           26%

                  Number of Denied Claims Appealed                         2,060       3,256 1
                    1. Medicare Administrative
                       Contractor (MAC)
                       Redeterminations                                    1,898         3,140
                    2. Qualified Independent Contractor
                       (QIC) Reconsiderations                                114           102
                    3. Administrative Law
                       Judge (ALJ) Hearings                                    48           14

                  Percentage of Denied Claims Appealed                      10%           16%

                  Number of Denied Claims Overturned                       1,092         1,557
                    1. MAC Redeterminations                                1,036         1,496
                    2. QIC Reconsiderations                                   22            47
                    3. ALJ Hearings                                           34            14

                  Percentage of Appealed Claims
                  Overturned                                             53%           48%


FY = fiscal year
CERT = Comprehensive Error Rate Testing


1
 Each level of the appeals process has statutory timeframes that provide due process to providers. Some of the
claim payment denials for FY 2010 may not have completed the appeals process before the release of our report.
APPENDIX B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
                                                                                            Page 1 of 2

  DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


                                                                          Administrator
                                                                          Washington, DC 20201




DATE:
            FEB 102012

TO:           Daniel R. Levinson
              Insp~ctor General


FROM:


SUBJECT:      Office ofInspector General (OIG) Draft Report: "Review ofCERT Errors
              Overturned Through the Appeals Process for Fiscal Years 2009 and 2010" (A-01­
              11-00504)


The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to comment
on this OIG draft report. The objective of the review was to determine the effect that appeal
decisions had on the Comprehensive Error Rate Testing (CERT) program's error rates for the
Medicare Fee-for-Service (FFS) as reported for FYs 2009 and 2010.

The Medicare FFS error rates for fiscal years (FY) 2009 and 2010 were 7.8 percent and 10.5
percent respectively. The reported rates do not reflect appeal decisions that were made after the
cutoff date for that particular year. As stated in the draft report, CERT claim payment denials
overturned after the cutoff date for each fiscal year would have reduced the reported error rates
from 7.8 percent to 7.2 percent for FY 2009 and from 10.5 percent to 9.9 percent for FY 2010. If
these overturned CERT claim payment denials had been included in the initial error rate
calculations, the estimated value of reported errors for FYs 2009 and 2010 would have decreased
by approximately $2 billion each year.

Appeal activity is tracked by the CERT program for each claim denial to ensure the accuracy of
the improper payment rate. Once a final appeal decision is made to payor deny the claim, that
decision is factored into the calculation of the Medicare FFS improper payment rate. The error
rate must be published each year as part of the annual financial statement reports on November
15. However, not all of the denied claims have completed the appeal process by this date. In
addition, providers can continue to submit medical documentation to support the services that
were paid. While the CERT program tracks both of these activities, appeal final decisions and
submission of late documentation, no adjustments are made to the error rates once they are
published.

We appreciate the OIG's efforts in determining the impact that appeal decisions had on the
reported error rates after the publication date. On November 15,2011 the CMS released an
adjusted error rate that incorporated the OIG's recommendation from this report. The CMS
                                                                                          Page 2 of 2

Page 2 - Daniel R. Levinson


included for the first time an estimate for activity related to the receipt of additional
documentation and the outcome of appeal decisions that routinely occur after the date of the
published annual improper payment rate. To account for this activity, CMS refined the error rate
methodology based on historical data for actual appeal results and the submission of late
documentation received after the cutoff date for 2009 and 20 I O. Based on the actual impact of
this activity on the 2009 and 2010 error rates, CMS developed an estimate modeled after the FY
2010 actual results. This is a more conservative approach for calculating the estimate than using
a blended rate from 2009 and 2010 historical data.

OIG Recommendation

The CMS should develop a reliable methodology for adjusting the Medicare FFS error rate,
incorporating the outcome of appeal decisions for CERT claim payment denials, to make CMS ' s
estimate of the value of reported errors more accurate.

eMS Response

The CMS concurs with this recommendation. In 2011, the CMS refined the CERT methodology
to reflect the projected impact of late appeals and late documentation on the Medicare FFS error
rate. We are encouraged by the OIG's findings and believe accounting for appeal decisions will
provide for a more accurate estimate of improper payments.

Reducing improper payments is a high priority for CMS. It is important to understand the issues
and areas that create improper payments and thus it is critical that CMS report the most accurate
information related to the error rate. We will continue to monitor appeals and refine our approach
to report the most accurate error rate by using historical data and trending information for future
reporting periods.
